1

f

i

No.

3?n/
<fu/jb'r'e/n/e' (jo-u/rt/ of tA/& (H//vi'b&d <St/a/be&

ROBERT R. SNYDER,
Petitioner,
vs.

THE STATE OF CALIFORNIA
Respondent

On Petition For Writ Of Certiorari
To the California Supreme Court

FILED
SEP 2 2 2020
OFFICE OF THE CLERK
SUPREME COURT us

PETITION FOR A WRIT OF CERTIORARI
♦

ROBERT R SNYDER, In Pro Se
D.O.C. No. AC9136, RJDCF
480 Alta Road
San Diego, CA 92179
(619) 661-7862

RECEIVED
SEP 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

<si

i
QUESTIONS PRESENTED
•

After the Plata ruling, California's legislature
lowered its prison population by enacting
Proposition(s): 36, 47 and 57. Should the
resultant extra living space be prioritized for
those prisoners who are serving Life or have
already been incarcerated for a decade or
decades? [Key Question]

•

Should California's DOC still be allowed to
punish its prisoners—using emergency
Overcrowding regulation 15 CCR § 3269(h)—
for a good faith cell assignment refusal, now
that the Plata ruling created more
space/flexibility hence ending the emergency?
[Legal]

•

Were the cases supporting denial applied by
California’s courts, an example of clear Legal
Error? [Legal]

•

Were the misrepresented procedural rulings,
issued by the lower courts done deliberately or
inadvertently? [Mixed]

•

Did California Prison system's rulemaking
authority deliberately obfuscate their
emergency Overcrowding—Housing
Regulations to Inter Alia engineer a vanguard
to any potential constitutional attacks towards
the reasonableness of the act’s nature and
purpose/means and ends? [Mixed]

a

ii

•

In the prison setting, should the regulatory
prohibition against self-defense be scrapped
once a state system exceeds its design
capacity? [Mixed]

•

Despite presentation of a solid factual and
legal foundation for relief, did the courts below
unjustly impair Petitioner's substantial right
to humane living conditions, when it upheld
the administrative findings? [Factual]

•

In response to their emergency, why did CA
build 21 prisons with small cells and bunk
beds if their intent was suppose to be to reduce
crowding? [Factual]

*4

iii

TABLE OF CONTENTS
Page
PETITION FOR WRIT OF CERTIORARI . .

1

OPINIONS AND ORDERS

1

Opinions and Orders from the California state
courts.....................................................

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING CERTIORARI . .

4

ARGUMENT

5

CONCLUSION

20

CERTIFICATE OF COMPLIANCE

22

VERIFICATION

22

iv

TABLE OF CONTENTS - Continued
Page
APPENDIX
Order Denying Petition for Writ of Habeas Corpus,
California Supreme Court, September 09,
. . . App. 1
2020 .
Order Denying Petition For Writ of Habeas Corpus,
Court of Appeal, Fourth Appellate District
Division One State of California, July 06, 2020
........................................................................ App. 2 -4
Order Denying Petition For Writ of Habeas Corpus,
Superior Court of the State of California, County
App. 5 -7
of San: Diego, June 05, 2020

TABLE OF AUTHORITIES
Page
FEDERAL CASES
Aguilar v. Atlantic Richfield Co.,
(2001) 25 Cal. 4th 826, 851
Bell v. Wolfish, (1976)
441 U.S. 520, 543
Brown v. Plata, (2011) U.S.
179 L. Ed. 2d 969 .

.

.

.

. 5

6, 7, 13, 19

passim

\1

V

TABLE OF AUTHORITIES—Continued
Page
Cleburne v. Cleburne Living Center, (1985)
473 U.S. 432, 439 ............................

17

Cortes-Quinones v. Jimenez-Nettleship, 842
F.2d 556. (1st Cir., 1988)....

.

. 8

Delgado v. Cady, 576 F. Supp. 1446, 1457
(E.D. Wise. 1983)...........................

.8

Dohner v. McCarthy, 635 F. Supp. 408
(C.D. Cal., 1985)......................
Fischer v. Winter, 564 F. Supp. 281
(N.D. Cal., 1983) . . .

passim

. passim

Gates v. Collier, 501 F.2d. 1291
(5th Cir., 1974)
. .
Harris v. Reeves, 761 F. Supp. 382
(E.D. PA, 1991)
. . .

8

.

Hoptowit v. Ray, 682 F.2d 1237, 1248
(9th Cir., 1981)
....
Hutto v. Finney, (1978) 437 U.S. 678, 686-87

8
.

Jensen v. Clarke, 94 F.3d 1191, 1200-01
(8th Cir., 1996)
......................
Morales-Feliciano v. Hernandez-Colon, 697
F. Supp. 26 (D. P. Rico, 1987) .

. 8

.13

. 8

.

. 8

vi
TABLE OF AUTHORITIES—Continued

Rhodes v. Chapman, (1981) 452 U.S. 337 .

Page
. .6

.

Thompson v. Lengerich, U.S. App. LEXIS 38237 *11
(10th Cir. 2019).................................................. 7
Toussaint v. McCarthy, 597 F. Supp. 1388
(C.D. 1984).......................................

6

Wright v. Rushen, 642 F.2d 1129, 1133
(9th Cir., 1982)...........................

15

FEDERAL STATUTES/RULES

28 U.S.C. § 1257(a)

1

Sup. Ct. Rules 10(c), 13, 30

1

OTHER AUTHORITIES

America Constitutional Law, L. H. Tribe;
§16-6 (1978)

17

Performance Based Standards and Expected
Practices For Adult Institutions, ACA, 5th ed.

5

Cal. Evidence Code § 110
15 Cal. Admin. Code §§ 3005(c), 3269 .

. 7-8

.

. 14, 17

1
PETITION FOR WRIT OF CERTIORARI
Robert Snyder respectfully petitions for a writ
of certiorari to review the denial of a Petition for writ
of habeas corpus by the California Supreme Court.

OPINIONS AND ORDERS BELOW
Opinions and Orders from the California
state courts.
The September 09, 2020 document from the
California Supreme Court denying petitioner’s
habeas corpus (Case No. S263573) is attached at
App. 1. Petitioner sought relief from the California
Court of Appeal only to have his petition, Case No.
D077686 denied by Order on July 16, 2020. The
Order is attached at App. 2-4. The June 05, 2020
Order from San Diego Superior Court initially
denying relief in this matter is attached at App. 5-7.

JURISDICTION
This Petition is authorized by United States
Supreme Court rules, Rule 10(c) and is timely filed
in accordance with Rule 13 and 30. This action is
also 28 U.S.C. § 1257(a) relative.

2
CONSTITUTIONAL PROVISIONS
This pro se Petitioner’s case involves issues
related to the Eighth and Fourteenth Amendments
to the United States Constitution.

STATEMENT OF THE CASE
The short course of Constitutionally deficient
State proceedings can be described as fast tracked
Complete Judicial exhaustion was accomplished in a
mere 94 days between June 5th and September 9th,
2020. Petitioner's Factual and Legal ensemble
covered a vast range of pertinent issues. The highly
detailed lower court documents display the cause
and effect of Snyder’s struggle to endure some
unrelenting living conditions.
Lately, California Prisons guard the door to
their libraries as though the books themselves were
captives. Petitioner has not had physical access to
Law Library for over 90 days. DOC's pre-textual and
otherwise speculative concerns regarding CoronaVirus, caused the need for instant Petitioner to
improvise. Despite this and other multi-lateral
distractions.., this Certiorari is filed in a timely
manner.
The matter posited here, consists of a series of
events that lasted a decade. Petitioner entered
California’s prison system in the height of its

3

Overcrowding problem and before long, began to
struggle accordingly. Year after year, California's
Corrections Department refused to recognize
Petitioner's need for single occupancy cell status;
resulting in many injuries. Petitioner sought
administrative remedies and finished exhaustion by
the end of 2011. At one point, Petitioner's documents
demonstrate back to back to back physical alter­
cations with overtly incompatible cellmates.
Habeas Corpus is the proper vehicle to seek
remedy from his injuries, directly subsequent to the
relevant set of de facto classifications. The cause at
bar is only the latest in long series of unfortunate
controversies, provoked by various custody officials.
The Common Law available to this subject has a
well-established history. After distilling the case
materials, one theme seems to emanate most
prominently:. the negative effects of prolonged
double celling, are prohibitive of the rehabilitation
process. The Federal Courts are certainly not in
disagreement there.
Evidence supplied to the lower courts shows a
disturbing trend of being placed in risky conditions
by the corrections administration; such that the
department was sufficiently apprised of. Sub-.
sequently, both lower courts incorrectly stated only
that petition writer Snyder failed to exhaust admin­
istrative remedies, contrary to the evidence. The
state's taciturn review of novel Constitutional
Questions ended with a blank denial.

4
REASONS FOR GRANTING CERTIORARI
It is necessary to call the state to account to
share the burden comity imposes upon both state
and federal courts with respect to the issues pointed
out in this action. To remedy Overcrowding and its
insidious by-products, this will require cooperation
between all parties—both benefactor and beneficiary
alike.
Certiorari is needed here to make certain that
nonce Petitioner's important evidence is given all of
the credit it is legally entitled to, and to avoid the
hardship associated with being denied a satisfactory
remedy. The evidence lodged below suggests his
custodians have made invidious, unjustified classclassifications regarding his housing status—those
that worked to his actual and substantial disad­
vantage. In addition, there are some disturbing
statistics underlying this controversy: 70 domicile
changes; 49 involuntary cellmates in one decade.
A grant of Certiorari may be needed to
discover why the courts, after viewing the out­
standing merits by the requestor, provided no
relief—yet by contrast, granted remarkable
deference to state officials. Likewise to determine
why despite the valuable subject submitted for
review, they were unwilling to offer a reasoned
opinion to oppose Petitioner's arguments and instead
improperly excluded him from the ambit of protect­
ion, normally afforded prisoners by governing
decisions.

5
Two inmates living in cell designed for one (60
sq. feet) constitutes illegal double celling: a practice
that wholly disrupts the rehabilitative process.
Cohabitation with a stranger in such a small space
requires a high quality of mental and physical health
that most lifer prisoners in California’s DOC,
currently no longer have.

ARGUMENT
A.: Discussion of Legal Issues
With respect to abuse taking place over a
decade, relief was denied although pars interponere
provided California with undisputed merit
concerning a compelling extant risk he still faces,
and the problem(s) would have been simple to
remedy. Due to the strength of evidence supplied
alongside the initial pleading, it is therefore
disconcerting what the trial court wrote with regard
to his not making a prima facie showing. There’s a
very minimal evidentiary standard for obtaining a
hearing—this is akin to CA Evidence Code § 110.
“The California Rules of Court demand that habeas
corpus proceedings use the prima facie case showing
as a screening mechanism; a prima facie showing is
one that is sufficient to support the position of the
party in question. . . no more is called for.” [Aguilar
u. Atlantic Richfield Co., (2001) 25 Cal. 4th 826, 851]:
“In determining whether a litigant has stated a
prima facie claim a court must take the factual

6
allegations as true. ., setting aside the possibility of
contradiction.” (id. at 857)
The surge of suicide rates in California’s
Prisons deplored by Brown v. Plata, (2011) 179 L.
Ed. 2d 969, certainly could have been prevented had
its officials not flexed their bureaucratic muscles in
the face of sage warnings; see Dohner u. McCarthy,
635 F. Supp. 408 (C.D. Cal., 1985) and Fischer v.
Winter, 564 F. Supp. 281 (N.D. Cal., 1983). These
seminal cases will be discussed later in more detail.
Now, looking at the inapplicability of Bell v.
Wolfish, (1976) 441 U.S. 520, 543. The conditions in
jail over a 60-day period are hardly comparable to an
overcrowded prison system that has some dungeons
- one in particular was built decades before the
passage of 14th Amendment, namely San Quentin.
Toussaint v. McCarthy, 597 F. Supp. 1388 (C.D.
1984) treated those in particular. As well, the people
would undoubtedly quote Rhodes v. Chapman, (1981)
452 U.S. 337 as a basis for their disclaimer. Rhodes
at 341 described South Ohio maximum corrections
facility as, “Unquestionably, a top flight first-class
facility; ... a window that opens and closes in 960 of
such cells.” Petitioner's experience is that none of
the California prisons—built to accommodate the
unanticipated population increase—have windows
that open... Rhodes found in that case, at 348:
“...(population increase).. . did not lead to
deprivations of essential food, medical care or
sanitation. Nor did it increase violence among

7
inmates or create other conditions intolerable for
prison confinement.” The description of prison
conditions in Plata supra, failed that exact inquiry.
That context also fails in the germane
instance: Petitioner brings Tenth Circuit's nonprecedential Thompson u. Lengerich, U.S. App.
LEXIS 38237 *11 (10th Cir. 2019) as support.
“Rhodes considered and ultimately rested upon, the
district courts finding of fact regarding the Plaintiffs
‘particular circumstances’ ” (Emphasis Added)
(Rhodes Id. at 347-48). Next, Lengerich *11 also
states, “The conditions alleged in the amended
complaint are worse than the conditions Rhodes held
as Constitutional... Rhodes inmates had access to
dayroom for 15 hours daily.” (Rhodes id. at 341)
Lastly Lengerich also at *11 goes on to say,
“Thompson alleges that the amount of unencum­
bered space fails to comply with current recommendded ACA Standards even for one inmate, let alone
two.” In California's post-Dohner construction era’s
(270° design cells).., this is precisely the problem.
Some of California's pre-Dohner cells are slightly less
than 60 square feet; one example is CMC-East,
another CSP-Vacaville. (Both originally designed
with one bed per cell).
To apply Bell and/or Rhodes here, in favor of
the people, would constitute a legal error because the
broad scope of their holdings are limited to a specific
location and therefore does not sufficiently embrace
the instant issues as they pertain to California’s
maximum security prisons today. Two men in one

8
California Prison cell is illegal primarily because of
the size; [Cf. American Correctional Association
(ACA): Performance Based Standards and Expected
Practices For Adult Institutions, 5th ed.] 2020.
Below is a list of some Overcrowding related
controversies from various regions:
• Hoptowit v. Ray, 682 F. 2d 1237, 1248
(9th Cir., 1981)
• Jensen v. Clarke, 94 F. 3d 1191, 1200-01
(8th Cir., 1996)
• Cortes-Quinones v. Jimenez-Nettleship, 842
F.2d 556. (1st Cir., 1988)
• Gates v. Collier, 501 F. 2d. 1291
(5th Cir., 1974)
• Delgado v. Cady, 576 F. Supp. 1446, 1457
(E.D. Wise. 1983)
• Harris v. Reeves, 761 F. Supp. 382
(E.D. PA, 1991)
Many of these were cited in the lower court’s
proceedings. It is clear that Overcrowding did not
become an issue in California until the late 70's,
early 80's. In Morales-Feliciano v. Hernandez-Colon,
697 F- Supp. 26 (D. P. Rico, 1987), the conditions
were described as ‘sub-human’ and that the officials
were on the verge of losing control of the prison to a
state of anarchy. It is important to realize that

9
Petitioner is a member of the minority; a mere 21%
of the CDCR's population is Caucasian. This makes
the situation more dangerous, more challenging for
him while living inside this system which today is
still running well over design capacity. In addition,
selecting from a smaller pool of individuals, increases
the likelihood of fatal compatibilities.
Petitioner ad manurn simply made a reason­
able request under the circumstances. After all of
the evident abuse, he should not have to play.a game
of Regulatory Minesweeper with California to obtain
a bridge over troubled waters. It is a documented
fact that during the course of writing this petition,
Petitioner was again assaulted by another inmate,
resulting in a substantial injury. He has been
subjected to these extremes on approximately twodozen occasions since his 2006 arrest. Because the
adult administration worked an injustice against his
claim, here it is now years later, going hang gliding
off the Constitutional cliff.

B: The origins of Overcrowding in California
and the prolonged effects of Double
Occupancy.
The California Prison system began to
struggle in the late 70's with an unanticipated
population increase. In the Dohner case supra, the
court noted that California was making plans to
start building several new prisons. It is uncertain
why California built 21 new prisons between 1984
and 2005, simply to fill every last cell with 2

10
prisoners. These 21 new prisons were built with
bunk beds yet with only 25 sq. feet of unencumbered
living space per 60 sq. feet total space. Petitioner
spent the better part of 15 years living inside these
pre-fab, emergency shelter type buildings. The
Dohnor court advised that the newly constructed
prisons would act as a safety valve to relieve the
crowding at the existing prisons. Accordingly, each
cell should have been built with only one prisoner
bed inside.
By the time Petitioner arrived at reception in
2010, almost every cell had two men inside. Even if
California had built all of its new facilities with 80
sq. feet, that is still not up to par with ACA stand
ards unless the inmates are outside of the cell most
of the day. 20% of cells included in these 21 new
prisons were built at 80 sq. feet; these are the super
maximum-security 180° cells where inmates spend
on average 23 hours of each day inside. Why did
California put bunk beds in all of these cells when
the clear command of the Dohner court at 440, was to
avert the ‘current, extreme emergency’?
Before switching gears, it is worth pointing out
that to this very day, of 122 Federal Prisons, their
total population is still almost equivalent to the
number of inmates in just 33 adult California insti­
tutions. In 2018, BOP had 129,430 prisoners to
California's 115,000. In 2010, California's population
dwarfed the number of Federal Prisoners by many
thousands...

11
Now, turning the courts attention to more
language from both Dohner and Fischer. Petitioner
considers Dohner the best pound for pound opinion to
treat the Overcrowding/double consolidation issue
overall. “California is recognized as having one of
the most serious problems of Overcrowding of any
state in the country.” (Dohner Id. at 422). The case
mentioned their total population in 1985 was around
30,000.
A good place to start is in regards to a
breakdown in the classifications:
“as the number of inmates climbs further,
it will be increasingly impossible for the
staff to meet the minimal housing needs
of those inmates whose psych, medical
and emotional needs make double celling
a cruel infliction of needless pain.” (id. at
415, 427); Accord—Fischer id. at 294,
(severe Overcrowding sets limits upon the
administration's ability to respond with
flexibly to housing problems arising from
Double celling); along those same lines,
“housing assignments . . . seem to be driven
more from available space than from actual
suitability for single cell status,” (Dohner
idem at 415); “...there is evidence that these
criteria are not always applied and do not
result in single cell housing even when that
kind of treatment is medically indicated.”
(id. at 415) "... nevertheless, it is clear that
as Overcrowding continues over time ... and
screening capacity is stretched even thinner,

12
the risk for fatal incompatibility is danger­
ously enhanced.” (id. at 417).
In that context, it is axiomatic what Dohner is
conveying is this: properly and safely classifying
inmates in a crowded setting becomes impossible to
accomplish in a timely manner; to save time, prison
officials are known to cut corners and the results
have been harmful.
Next, with respect to medical and mental
health.., Dohner went on to say, “...the physical and
mental health of inmates relates to the duration as
well as the (very) fact of double celling (itself). There
are two aspects to this relationship: First, in-cell
time on a day-to-day basis and Second, the time
elapsed of exposure to the double cell experience.”
This is particularly true of those persons for whom a
double cell is “medically or psycho-logically
inappropriate.” (Emphasis addedlid. at 417).
On the next page, the court wrote,
“The extent of detriment to the physical and
mental health of prisoners exposed to double
celling over time may be significantly influ­
enced by the degree of hope and encourage­
ment to inmates and to the institution, that
an end is in sight. One component is the
state's exerting itself to eliminate Over­
crowding in general and in the cell in par­
ticular.” (id. at 418).

13
Here the court emphasized the need to put an
end to Overcrowding, not make it exponentially
worse. Please also consider,
inmates react by
social and psychological withdrawal and that
Overcrowding poses particular problems for psycho­
logically vulnerable inmates such as Category J & K
(EOP) inmates. Inmates also testified to the general
deterioration of conditions at CMC since the advent
of double celling.” (Ibidem). Petitioner sub-judice
stayed at CMC-East—the subject of the Dohner
opinion—exactly 30 years later; he witnessed first
hand that double cells were still in use, as of late
2015.
Overcrowding in general can be defined as too
many people in too little space. Truthfully, double
cells are not such an extreme if it involves a 120 sq.
foot arrangement. That was certainly not the
situation Hutto v. Finney, (1978) 437 U.S. 678, 68687 spoke at length about, not to mention, “A filthy,
overcrowded cell and a diet of grue [sic] might be
tolerable for a few days and intolerably cruel for
weeks or months.” Bell supra seems consistent here
with regards to a short-term stay in jail. Distinctly,
Petitioner has lived through crowded conditions for
years on end.
Let us turn now to Fischer v. Winter, supra
as it offers a whole different view into the crowds...
Fischer alike Dohner brings a nice array of topics
regarding Overcrowding and the often, overlooked
results. Considering how simply the stigma of
being incarcerated itself, even absent crowded

14
conditions produces stress.., we trust it is true;
“expert testimony establishes as a general
proposition that Overcrowding increases stress,
and that excessive levels of stress may induce or
aggravate physical illness...” (Fischer at 291).
As well, “Overcrowding not only interferes
with the staffs ability to supervise and intervene to
protect inmates, it contributes in a variety of {other)
ways to the stresses and tensions that increase the
likelihood of violent incidents.” (Emphasis added/id.
Fischer near 293). Inter alia, i.e., with a poor line of
sight, it is difficult to peer through a crowded room to
see a violent incident already underway; thus the
reason to question the current regulatory prohibition
against the use of force in self-defense [(15 Cal
Admin. Code § 3005(c)]1. Also consider,
"... deterioration in sanitary conditions, even
if no adverse health effects are demonstrated,
induces stress for many inmates. . . and some
of the inmates do not observe a very good
standard of personal hygiene; they shower
and change clothes infrequently. These prob­
lems obviously become much more noticeable
in an Overcrowded facility.” {id. at 293).
In a small cell, all of the household’s dirtiest
items are within arms reach. Petitioner has more
than once, personally witnessed someone punching

1 Petitioner was disciplined for defending himself on numerous
occasions.

15
their celly for refusing to shower. Bunking with a
person who willingly refuses to practice proper
hygiene, becomes an unending emotional torment.
In addition, ‘lack of privacy’ and ‘lack of personal
space,’ were mentioned as stress inducing factors;
(ibidem).
Then as to Scarcity: “Overcrowding also
creates scarcity—of beds, of food, of shower time;
fights often occur over goods or services that are in
short supply. Theft is a constant problem that not
only provokes fights, but induces anxiety in inmates
about the security of their possessions." (Emphasis
Added/Fischer ibid.) Consider Overcrowding’s
mutually enforcing effect in the germane context
with housing status: “Each condition of confinement
does not exist in isolation; the court must consider
the effect of each condition in the context of the
prison environment, especially when the ill effects of
particular conditions are exacerbated by other
related conditions.” Wright v. Rushen, 642 F2d 1129,
1133 (9th Cir., 1982). When Petitioner completed
administrative exhaustion of the instant issue in
2011, his initial observation was that ‘his expensive
property was always a source of problems’, between
him and his cellmates.
Lastly, “...crowding had aggravated the
problem of stronger and more criminally
sophisticated inmates preying on weaker,
less sophisticated inmates for commissary
items, money and sexual favors; supervision
difficulties discussed above contribute to
this problem, but an additional factor of

16
importance is the inability because of
Overcrowding to segregate inmates ade­
quately.., since certain types of inmates—
a predator-type and a victim-type—cannot
be housed safely in the same cell, the mul­
tiple occupancy area of a jail must be con­
sidered operationally full at 80 - 90% of its
bed capacity: beyond that level, it becomes
almost impossible to avoid unsafe mixing.”
(.Fischer, Ibid.) (accord Dohner at 417).
By 1985, California had multiple district
litigation regarding Overcrowding and its effects;
both very thorough treatments. The question
becomes: Why did California wait to address this?
Long after Plata, this relative issue continues to
surface like an early morning mist hovering over a
swamp.
If CDCR is currently still claiming the right to
conduct compulsory compactions, then they are
admitting by implication that some facilities still
have a crowding problem. To address it, CDCR
recently unveiled a very controversial re-sorting
technique called Non-Designated Programs whereby
it wields some unknown authority to remix certain
Protective Custody inmates back into General
Population zones. Ironically, it began doing this in
2014, starting with the Coleman class facilities; the
very reason why the mental health programs are still
the most crowded; where to this very day, most of the
forced cell pairings are taking place! This is the
exact opposite of what the Dohner court order
warned as it tossed aside the Plaintiffs preliminary

17
injunction, contingent upon putting an end to
Overcrowding as soon as possible, starting with the
mental health programs first...

C: Arbitrary Lower Court Denial of
Petitioner's Action, Raises Serious Fourteenth
Amendment Concerns.
The displaced status of state prisoners makes
them particularly vulnerable to common forms of
discrimination. Despite this unfortunate backdrop
the “equal protection clause requires the government
to treat similarly situated people alike”; Cleburne v.
Cleburne Living Center, (1985) 473 U.S. 432, 439. At
the center of this dispute, is 15 Cal. Admin. Code §
3269. It was adopted in 2008, as an emergency to
address space limitations. If the Overcrowding has
since then, been partially alleviated: respectfully,
(1) What further need does the department have
with this emergency act and (2) What governmental
interest is served besides convenience or something
even less compelling? “...The governmental interest
in efficiency, convenience, or cost saving may be cited
in support of a challenged rule: strict scrutiny would
include judicial wariness of interests such as these
which can easily and indiscriminately be invoked,
and which almost never point uniquely to a
challenged political choice.” American Constitutional
Law, L. H. Tribe; §16-6 (1978).
The prison system enjoys the pointed lack of
visibility within which it operates. The conditions

18
inherent to crowding provide bountiful opportunities
for officials to suppress grievances, level extrajudicial
punishments, et cetera.2 The discriminatory
enforcement of housing policy noted above has
proved utility in this regard. Petitioner ad litem has
standing here in that his unalloyed evidence of
injuries there-from is weighty. He made a great
showing in the lower courts after spending many
months on the project. Please notice how many 14th
Amendment fault lines exist with respect to the
Certiorari Applicant's well-pled discussion.
Suppliant included most all of these in his earlier
papers: (1) Regulatory Irregularities; (2) Double cells
impact on education/rehabilitation; (3) property
restriction due to space limitations; (4) health and
safety risks posed by gross incompatibility; (5) sexual
and other acts of violence; (6) custody officials
attempting to normalize this chaos using precocious
scienter schemes; (7) breakdown in classifications;
(8) increased risk for transmission of communicable
disease; (9) risk of serious head injury from a fall off
the top bunk; and (10) cellmate experimentation.
There are simply too many things that can go wrong;
prolonged Overcrowding provides a ‘dangerous
surplus of power’ to prison officials who historically
are known to abuse their position of trust.
The standard set forth in Brown u. Platasupra, addressed the most obvious hazards, however
from a practical standpoint could not sort out all of
the underlying causes of mental and physical
2 By contrast, prisoners acting as spies on behalf of the
administration are experiencing no such trouble.

19
disease—those instances nearly made CDCR's health
services collapse 20 years ago. CDCR’s health care
would not be so noticeably awful in the absence of
ubiquitous illness—such that highlighted these
systemic infrastructure deficiencies. And this begs
the question: What was the primary cause of the
disease? Nationwide district court injunction
opinions suggest: the forced double celling in small
spaces within high security institutions.., is the
causation. Besides this, the holding in Bell supra
seems to agree, as it implies that long term double
cell arrangements become an inhumane condition of
confinement, relative to inadequate shelter.
Despite satisfying the lengthy criteria for
single man celling, Cal DOC has denied Petitioner
his right to safe housing annually, for nearly a
decade. As set, the Department currently has
reclassified Petitioner, putting him on the road to
relive endless domestic confrontations, indefinitely.
After many a petition for redress of grievance, the
risible factual sequence has become quite predict­
able: File - Pause - Denial of Petition - resume the
following - (1) discrimination (2) harassment, (3)
retaliation. This documented process has repeated
itself countless times. Meanwhile, CDCR assumes
magisterial power for the manifold accommodation of
certain unqualified inmates; e.g., to an imprisoned
relative of a Lieutenant or to a devoted informant,
goes ‘single cell status’ automatically.

20

Notwithstanding having received plain
evidence of these ongoing deprivations, the lower
courts made an ultra-express disposal of the matter
although the weight of evidence was in his favor.
Suprema lex supra popularis objectum.

CONCLUSION
The lower court disregarded Petitioner's
a fortiori arguments as well: his informative
presentation was quickly set aside without due
regard for his fundamental civil rights. To this
day—California's lack of clear regulatory policies,
referenced herein—continue to cause systemic
harm. The intent of the relevant act cannot be
sufficiently disguised in order to pass through the
Constitutional fire without being consumed. The
subject matter brought by Petitioner is governed
more by an absence of a definite rule or standard
than anything else; a policy vacuum seems to be
in effect in this matter here.
The Department lacked rationale for its
failure to provide a safe housing environment in this
instance. Clearly defined legal boundaries were
trespassed by DOC's unsupported findings. Due
process was violated when the courts denied relief
from this conspicuously bad administrative
indiscretion.

21
California would have suffered no prejudicial
or otherwise harmful impact upon accommodation of
the earlier requested relief. A less restrictive alter­
native does not apply here; no gray area exists
between a single and double occupancy cell. In this
case, the provision of protected housing status is
appropriate and narrowly tailored; extends no
further than necessary to correct the alleged harm
along with preventing further harm.
For now, the state's decision to unlawfully
deny relief rests upon anomalous decision-making
without respect to the surplus of proven facts
provided. As it stands, Petitioner is left to augur up
possible scenarios for the court's apparent dis­
approval. It fails both pillars of Due Process if a
non-frivolous petitioner has to guess as to the basis
of the challenged decision.
Petitioner’s legal questions unveil another side
of the Overcrowding story that earlier cases declined
to address. Ratio confirmat causa est Justus
Certiorari can reverse these obstacles to advancing
the record towards prospective relief.

